                          WHITE PAPER



Package Services: Get Ready,
Set, Grow!

July 21, 2014




                    Report Number: RARC-WP-14-012
                                                               EXECUTIVE SUMMARY

    Package Services: Get Ready, Set, Grow!
Package services are now a critical part of                          Highlights
society as e-commerce and physical
delivery converge. They are also becoming             Because of the potential for significant
essential to the future of the U.S. Postal            growth, package delivery is critical to
Service. With the advent of the Internet              the future of the U.S. Postal Service.
and other digital media, the traditional
letter and flat volumes of the Postal                 Global e-commerce will exceed
Service are in a slow but steady decline;             $1.5 trillion in 2014, and American
however, the digital revolution is having an          businesses and consumers spent more
                                                      than $68 billion to ship packages
opposite effect on its package business.              domestically in 2013.
Package deliveries are growing and have
become essential to both e-commerce and               The Postal Service needs a strategy that
the Postal Service. Increasingly,                     allows it to keep pace with
consumers are purchasing a broad range                developments in the evolving package
of products online for delivery directly to           market.
them one package at a time.
                                                      The Postal Service has an advantage in
Global e-commerce will exceed $1.5 trillion           low-cost, last-mile package delivery, but
in 2014, and American businesses and                  many e-retailers want one-stop
consumers spent more than $68 billion to              solutions that enable them to focus on
                                                      their core business. The Postal Service
ship packages domestically in 2013. While
                                                      can better serve these needs by
the Postal Service is responding to the               expanding end-to-end and value-added
increasing demands from this sector on its            services, as other package delivery
last-mile delivery operation, other package           companies have done.
delivery companies are offering one-stop,
end-to-end expanded products and                      The Postal Service’s networks are built
services. These full-service solutions                largely on letters and flats whose
include invoicing, payment solutions,                 volumes are decreasing; however,
customs clearance, returns and                        package volumes are increasing, so
repackaging, logistics planning and                   strategy and investment need to be
expertise, upfront information platforms,             shifted more towards packages.
and customer service.

In addition, some e-retailers are investing internally in operational expansion to replace
shipping and last-mile delivery partners. For example, Amazon is locating warehouses
in close proximity to its customers and establishing a system of parcel lockers in select

U.S. Postal Service Office of Inspector General                                         July 21, 2014
                                                  i
RARC-WP-14-012                                                       Package Services: Get Ready, Set, Grow!



cities from which customers can retrieve packages at their convenience. These efforts
are likely to lead e-retailers to ship and deliver more packages on their own, reducing
the number it sends through package delivery companies, including the Postal Service.

While the number of companies and e-retailers that sort and process packages is
growing, the number that can ultimately provide efficient and effective delivery to
neighborhoods is limited by practical concerns. Neighborhoods cannot facilitate or
tolerate a huge number of heavy trucks on quiet streets each day. Exhaust emissions
will also likely reach saturation points. To continue to be the efficient and effective
provider of such services, the Postal Service needs a package strategy that includes the
following elements:

          Building a market perception as the reliable, competitively priced shipper of first
           choice.

          Directing investments in its infrastructure to adapt to changing customer needs.

          Strengthening the role of digital information and information-based services, such
           as tracking and tracing packages and providing custom control over the place,
           date, and time of delivery.

          Continuing to change and grow to meet evolving customer needs.

          Expanding beyond the traditional postal expertise of delivery, to offer one-stop,
           end-to-end solutions as customers are demanding.

The U.S. Postal Service Office of Inspector General (OIG) has previously reported on
the Postal Service’s readiness for package growth in a series of reports that assessed
delivery operations, processing capacity, and customer service. The OIG found that the
Postal Service has successfully managed package growth, adjusted to fluctuations in
package volume, improved scan rates, and currently possesses enough machine
capacity to process non-peak package volume. However, opportunities exist to improve
readiness for package growth by taking steps that include implementing dynamic
routing, retaining more city carrier assistants, increasing barcode scanning, reducing
customer wait times, and adjusting mail arrival schedules to correspond with machines’
operating windows.

In this paper, we examine a possible new strategic positioning for the Postal Service in
the critical and growing package business. We note the following key findings:

          Packages are essential to both the Postal Service’s future financial footing and
           its processing and delivery networks. Traditionally, those financials and networks
           were largely built upon letters and flats. Packages accounted for only 17 percent
           of total revenue and 8 percent of total contribution in FY 2013 — but the trend is
           positive as those proportions are increasing.

          The domestic package delivery market is primarily served by UPS, FedEx, and
           the Postal Service. The Postal Service accounts for less than one-fifth of the total

U.S. Postal Service Office of Inspector General                                                July 21, 2014
                                                  ii
RARC-WP-14-012                                                    Package Services: Get Ready, Set, Grow!



           revenue but almost two-fifths of the total volume. Overall, the Postal Service’s
           mix of packages generated a relatively low revenue per piece of $3.37. UPS’s
           and FedEx’s average revenues per piece for their domestic packages were $9.39
           and $9.70, respectively. While the Postal Service has long served low revenue
           market segments such as lightweight packages very well, customer demand has
           created opportunities to offer value-added services and enter the higher revenue
           per piece segments.

          The Postal Service enjoys a natural network advantage in low-cost delivery.
           Because of this, UPS and FedEx often use the Postal Service for final, last-mile
           delivery of lightweight packages. Although the Postal Service should continue
           offering last-mile only services as appropriate, evidence suggests that shippers
           may see last-mile products as largely interchangeable commodities — costs to
           manage and reduce, rather than value-added services. There are many benefits
           to offering value-added services, including increasing direct contact with
           customers. Such contact provides the unparalleled ability to learn about and stay
           in close touch with their evolving package service needs. The Postal Service can
           better meet customers’ needs for one-stop, end-to-end solutions by expanding
           offerings along the delivery value chain as other package delivery companies
           have done. These offerings could improve customer service and include
           solutions like returns management and logistics planning.

          While private package delivery companies frequently use the Postal Service
           delivery, the expected national growth in package volumes will provide a profit
           incentive for both them and e-retailers to deliver the packages themselves on the
           routes with the highest revenue and lowest cost. The Postal Service cannot
           afford to be the provider of last-mile delivery only when the revenue is low and
           the cost is high. Such “cream skimming” will harm the Postal Service’s package
           revenue and its ability to fund universal service.

The Postal Service needs to invest in the package business and develop a network that
maximizes the efficiency and minimizes the cost of providing modern package products
and services. The existing network may not have the capabilities necessary to meet the
expanding needs of today’s rapidly evolving marketplace.




U.S. Postal Service Office of Inspector General                                             July 21, 2014
                                                  iii
RARC-WP-14-012                                                                                 Package Services: Get Ready, Set, Grow!



                                                  Table of Contents
Introduction ..................................................................................................................... 1

The Package Delivery Evolution — Unlocking Value ...................................................... 2
     Commerce of the Future ............................................................................................ 2
     The Customer of the Future ....................................................................................... 3
     The Package Delivery Company of the Future .......................................................... 5
     Key Strategic Considerations ..................................................................................... 6

Financial Trends and Analysis ........................................................................................ 7
     Postal Service Financials ........................................................................................... 8
     Package Delivery Market Financials .......................................................................... 9
     Key Strategic Considerations ................................................................................... 13

A Customer-Driven Package Strategy........................................................................... 13
     Focus on Customers ................................................................................................ 13
     Position for Long-Term Success .............................................................................. 14
     Invest in the Package Business ............................................................................... 15
     Expand Along the Package Delivery Value Chain ................................................... 17
     Key Strategic Consideration .................................................................................... 18

Next Steps..................................................................................................................... 19




                                                            Tables
Table 1                   Modern Products and Services Span the Delivery Value
                          Chain ..................................................................................................... 6

Table 2                   Inconvenient Times and Packages Left Unattended are
                          Top Reasons for a Poor Package Experience ..................................... 19




U.S. Postal Service Office of Inspector General                                                                           July 21, 2014
                                                                   iv
RARC-WP-14-012                                                                               Package Services: Get Ready, Set, Grow!



                                                         Figures
Figure 1                  Over 50 Percent of Books, Clothing, and Consumer
                          Electronics are Bought Online ............................................................... 1

Figure 2                  E-Commerce Sales Drive Growth in Postal Service
                          Packages ............................................................................................... 3

Figure 3                  Consumers Care Most About the Basics ............................................... 4

Figure 4                  What E-Retailers Care About Most........................................................ 5

Figure 5                  Packages Are 17% of Postal Service Revenue and 23%
                          of Cost for FY 2013 ............................................................................... 8

Figure 6                  Packages Contributed Over $2 Billion in FY 2013 ................................. 8

Figure 7                  Some Packages Have Healthy Unit Contributions and
                          Profit Margins for FY 2013 ..................................................................... 9

Figure 8                  The Domestic Package Delivery Market in 2013 — Postal
                          Service Delivers the Lower Revenue per Piece Packages .................. 10

Figure 9                  Domestic Revenue Per Piece by Major Delivery Market
                          Segment from 2009-2013 .................................................................... 11

Figure 10                 FedEx SmartPost Increased 150 Percent from 2009-2013 ................. 12

Figure 11                 Package Delivery Value Chain ............................................................ 18

Figure 12                 Consumers are Willing to Pay for Accelerated Delivery,
                          Scheduling, Secure Delivery, and Tracking Services .......................... 20




U.S. Postal Service Office of Inspector General                                                                        July 21, 2014
                                                                  v
RARC-WP-14-012                                                                                                                                  Package Services: Get Ready, Set, Grow!




      Package Services: Get Ready, Set, Grow!

Introduction
The package delivery market is an important and growing segment of the U.S.
economy.1 In 2013, American businesses and consumers spent more than $68 billion to
ship packages domestically.2 Amazon alone paid more than $6.6 billion to delivery
companies in 2013.3 Increasingly, buyers are purchasing a broad range of products
online and sellers need to fulfill those purchases. Figure 1 shows that online purchases
in the United States include books, clothes, consumer electronics, shoes, pet supplies,
and more.4

     Figure 1: Over 50 Percent of Books, Clothing, and Consumer Electronics Are Bought
                                            Online

      80%


      60%


      40%


      20%


       0%
                                                                                    Sporting goods
                Books




                                                                                                                    Of f ice supplies
                                                                                                     f urnishings




                                                                                                                                                                                    Auto parts
                                                                                                                                                       improvement

                                                                                                                                                                     Pet supplies
                         Clothing




                                                                                                                                                                                                      Groceries
                                                            Shoes
                                    electronics




                                                                    Athletic wear




                                                                                                                                        Pers. care &
                                                  Jewelry




                                                                                                                                         household
                                                                                                         Home
                                       Cons.




                                                                                                                                                          Home




    Source: Morgan Stanley.




1
  This paper uses the term packages throughout, but it can represent, given the specific context, the package market
of overnight, 2- and 3-day, and ground markets or parcel-shaped mail matter.
2
  Sixty-eight billion dollars is the combined revenue of the Postal Service’s shipping and package services, UPS’
domestic package operations, and FedEx’s domestic packages. Postal Service, 2013 Annual Report to Congress,
UPS, U.S. Domestic Package Operations, Quarterly Historical Income and Operating Data, 2013 Q4, and FedEx,
Total U.S. Domestic Packages, FedEx Annual Report 2013. This paper focuses on the domestic package market;
however, the Postal Service has opportunities to serve the growing international package market as well.
3
  North America and International Outbound Shipping Costs. Amazon, Annual Report, 2013, http://phx.corporate-
ir.net/External.File?item=UGFyZW50SUQ9MjI4Njc1fENoaWxkSUQ9LTF8VHlwZT0z&t=1, p. 24.
4
  Morgan Stanley, eCommerce Disruption: A Global Theme – Transforming Traditional Retail, 2013,
http://www.rundlemall.com/bm.doc/ecommerce_bp0106131.pdf, p. 23.


U.S. Postal Service Office of Inspector General                                                                                                                                                  July 21, 2014
                                                                                    1
RARC-WP-14-012                                                                    Package Services: Get Ready, Set, Grow!



The package delivery market is changing quickly and becoming increasingly
competitive. Package delivery companies are offering new products and services as
they aggressively fight to increase their market share. Retailers are seeking more
efficient and effective fulfillment, even investing in practices that replace traditional
end-to-end shipping and last-mile delivery.5 Consumers are demanding more control
over shipping options.

There is no doubt that packages are growing in importance to the Postal Service’s
future financials and network. To compete successfully in the future, the Postal Service
needs a package strategy that focuses on customers, positions itself for long-term
success, and expands its role across the package delivery chain.

The Package Delivery Evolution — Unlocking Value
Commerce of the Future
In 2014, global business-to-consumer e-commerce
sales will top $1.5 trillion.6 U.S. sales will exceed   In 2014, global business-to-
$430 billion as many consumers seek the lower           consumer e-commerce
                                                        sales will top $1.5 trillion
prices, greater convenience, broader selection,         while U.S. sales will exceed
richer product information, and broader access          $430 billion.
offered by online shopping.7 E-commerce continues
to grow and evolve; geographic distances and
borders are shrinking. New markets are opening as retailers connect to distant
consumers. Businesses are investing in digital showrooms, or virtual department stores,
to display their products and conduct transactions. Power is shifting from businesses to
consumers.8 Consumer choice and demand are driving the decisions of retailers and
package delivery companies. These transformations result in fulfillment and shipping
becoming increasingly important.

Figure 2 shows domestic e-commerce sales are expected to have doubled between
2008 and 2013.9 Postal Service packages, unlike letter- and flat-shaped
correspondence, transactions, and advertising, also increased by over 20 percent

5
  Fulfillment, generally, is a process of receiving, servicing, and tracking products that customers have ordered or
purchased. Fulfillment typically refers to services that include storage and warehousing, selecting and packing,
shipping, returns processing, and customer service support.
6
  “Global B2C Ecommerce Sales to Hit $1.5 Trillion This Year Driven by Growth in Emerging Markets,” eMarketer,
February 3, 2014,
http://www.emarketer.com/Article/Global-B2C-Ecommerce-Sales-Hit-15-Trillion-This-Year-Driven-by-Growth-
Emerging-Markets/1010575.
7
  Ibid., and “Ecommerce Sales Topped $1 Trillion for First Time in 2012,” eMarketer, February 5, 2013,
http://www.emarketer.com/Article/Ecommerce-Sales-Topped-1-Trillion-First-Time-2012/1009649.
8
  Receivers are achieving greater choice in what, when, and how they receive communications. This equally applies
to packages. U.S. Postal Service Office of Inspector General, The Postal Service Role in the Digital Age, Part 1:
Facts and Trends, Report No. RARC-WP-11-002, February 24, 2011,
https://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-11-002_0.pdf.
9
  U.S. Postal Service, Revenue, Pieces, and Weight Reports and Quarterly Statistics Reports (QSRs), Bureau of
Economic Analysis, Gross Domestic Product, U.S. Census Bureau, U.S. Electronic Shopping and Mail-Order Houses
– Total and E-commerce Sales. All Postal Service data in this paper is available in the public domain.


U.S. Postal Service Office of Inspector General                                                             July 21, 2014
                                                         2
RARC-WP-14-012                                                                      Package Services: Get Ready, Set, Grow!



during the same timeframe. Interestingly, package volume did not increase on a
one-to-one relationship with e-commerce sales, partially due to consolidating purchases
into single, larger boxes or consumers buying more expensive products.10 Nonetheless,
e-commerce appears to be driving package volume, and as e-commerce grows, the
need to process and deliver packages increases.

               Figure 2: E-Commerce Sales Drive Growth in Postal Service Packages

         100%
                                                                         96%
                                                                                        E-Commerce Sales

          75%
                                                                                        E-Commerce Sales -
                                                                                        Estimated
          50%
                                                                                        All Postal Service
                                                                                        Packages
          25%                                                            23%
                                                                         14%            GDP

            0%
                                                                                        All Mail Including
                                                                                        Priority Mail Express
                                                                         -22%           (Less All Packages)
          -25%
              2008           2009         2010    2011   2012       2013

        Source: U.S. Postal Service and U.S. Census Bureau.


The Customer of the Future
Package delivery companies must define their customers, deciding on whom they will
focus the marketing of their services. Because buyers and sellers, or e-retailers and
consumers, drive the demand for package and shipping services, they should be the
Postal Service’s foremost customers.11 It is critical for the Postal Service to know their
needs and wants.12

Figure 3 shows that consumers care most about the basics in shipping options: price,
ease of returns, and online tracking. Of less importance to consumers are value-added

10
   There is also a purely mathematical reason for this. The percentage growth in packages is based on an already
mature volume base, while e-commerce is growing from a base of near zero just a decade or two ago. This will
produce disparate percent growth rates, even if the growth in the absolute number of packages is comparable.
11
   Consolidators that aggregate and present packages for shipment also use the Postal Service. Amazon is an
interesting and important case due to its size and scope in e-retail. Amazon is a seller, but also an online marketplace
that fulfills sales between buyers and other sellers. At a minimum, the Postal Service should be attentive to Amazon’s
needs as a seller.
12
   A traditional market segmentation is business-to-business (B2B), business-to-consumer (B2C),
consumer-to-business (C2B), and consumer-to-consumer (C2C). The Postal Service is a major player in all but the
B2B segment. Existing market research studies perform rigorous analyses of those segments.


U.S. Postal Service Office of Inspector General                                                               July 21, 2014
                                                           3
RARC-WP-14-012                                                                       Package Services: Get Ready, Set, Grow!



services and premium offerings like same-day delivery and dynamic rerouting; however,
this may change in the future as consumers gain more purchasing power and
confidence or as digital natives increase their share of commerce.13

                               Figure 3: Consumers Care Most About the Basics




 Source: Boston Consulting Group, Same-Day Delivery: Not Yet Ready for Prime Time, April 2013, p. 10.

Of course, individual citizens are not only recipients. They are also senders with specific
needs for package delivery. Sometimes, individuals use the Postal Service as the
package delivery company of last resort, as the Postal Service is obligated to provide
service to all areas of the country at fair, reasonable prices. The Postal Service should
continue to serve this need.

The world of e-retailer business models is highly fragmented, encompassing new niche
markets, mature online mass markets, and traditional businesses. Nonetheless,
e-retailers share a common focus on commerce (manufacturing and selling products),
not logistics.14 Shipping and fulfillment are important and necessary, but, because these
are not their core business, they are sometimes simply considered to be cost centers.
This dictates their logistics and delivery service requirements, framing the opportunity


13
   Dynamic rerouting is a service that lets the consumer change the delivery destination of a package that is in-transit.
Digital Natives, born generally after 1980, are entering their peak earning years and becoming the dominant
consumer group. For them, packages are replacing periodicals as the new anchor of the mailbox, driving interest in
and anticipation of mail. USPS OIG, Enhancing Mail for Digital Natives, Report No. RARC-WP-14-001, November 18,
2013, http://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-14-
001_enhancing_mail_for_digital_natives.pdf.
14
   See, for example, International Post Corporation, IPC Cross-Border E-Commerce Report, 2010,
http://www.ipc.be/~/media/documents/public/markets/ipc%20cross-border%20e-commerce%20report.ashx, p. 37.


U.S. Postal Service Office of Inspector General                                                                July 21, 2014
                                                           4
RARC-WP-14-012                                                                    Package Services: Get Ready, Set, Grow!



for package delivery companies: e-retailers want third parties to seamlessly and cost-
effectively take care of shipping and fulfillment.

Figure 4 shows that shippers/e-retailers currently care most about delivery cost,
reliability, track and trace, and ease of use.15 As long distance shopping becomes
increasingly complex, personalized, and international, e-retailers will use and require
many products and services. Certain products and services will likely change in relative
importance as they shift from extras to baseline offerings and as package delivery
companies modernize their capabilities.

                                      Figure 4: What E-Retailers Care About Most

                                                    E-Retailers

                     Primary Factors
                      Cost of Delivery                                      Other Factors
                      Reliability of Delivery
                      Track & Trace                                        Information
                      Ease of Use                                           Management
                                                                            Logistics Expertise
                                                                            Return
                                                                             Management
                                                                            Warehousing
                                                                            Flexibility
                                                                            Trust and Security


                                                  Delivery Partner
                Source: OIG Research and International Post Corporation.

The Package Delivery Company of the Future
Modern package delivery companies strive to be the cost effective and quality service
delivery partner of first choice. They also continuously upgrade their products and
services to offer solutions along the entire delivery value chain. This goes beyond
package delivery and returns and includes transportation, warehousing, payment
solutions, and customer relationship management. Table 1 shows the breadth of
selected products and services.




15
     OIG Research and International Post Corporation, IPC Cross-Border E-Commerce Report, 2010.


U.S. Postal Service Office of Inspector General                                                             July 21, 2014
                                                          5
RARC-WP-14-012                                                             Package Services: Get Ready, Set, Grow!



               Table 1: Modern Products and Services Span the Delivery Value Chain
     End-to-End Solutions                             Information Solutions
          systems integration                         upfront platforms
          invoicing                                   real-time tracking
          backend fulfillment on                      mobile technology and applications (APIs)
              printing and payment                     delivery instructions and scheduling
          segmented pricing                              (accelerated, evening, Saturday,
          customs clearance                              package lockers, hold for pick up)
          payment methods                             time-definite service
          manifesting                                 place-definite service
          scheduled pickups                           package redirect and routed delivery
          free shipping boxes                         digital signature capture
          returns management                          package release authorization
          warehousing                                 authorized alternate recipient
          fleet maintenance                           online inquiries
          transportation                              customer service
          IT services                                 proactive customer communication
          logistics planning and expertise            proactive notifications
     Source: OIG Research.

Modern package delivery companies’ internal networks and processes align with the
external offerings to customers. This intersection is the hallmark of two best practices:
(1) leveraging internally-driven data and capabilities to offer products and services and
(2) leveraging customer-driven data and capabilities to improve internal operations. For
example, real-time tracking is the product of an extensive infrastructure of scanning
technology, a business culture emphasizing scans, and customer-centric applications.
The scanning information serves customers’ requirements to track and trace packages.
Cutting-edge delivery companies use that same infrastructure to increase internal
efficiencies.

Today’s rapid pace of technological innovation impacts the package delivery company
of the future (see The Innovations of the Future sidebar below). It is premature to gauge
the long-term impact of these innovations, but the smart package delivery companies
will, at a minimum, monitor developments and opportunities closely.

Key Strategic Considerations
          E-commerce is driving growth in packages while other mail volume is declining in
           aggregate. As packages grow, fulfillment and shipping will become increasingly
           important.

          The Postal Service’s most critical package customers are e-retailers and
           consumers, the ones buying and selling products online. Consumers currently
           care most about price, ease of returns, and online tracking; however, in time,



U.S. Postal Service Office of Inspector General                                                      July 21, 2014
                                                  6
RARC-WP-14-012                                                                  Package Services: Get Ready, Set, Grow!



           their requirements may shift to
           premium offerings like same-                          The Innovations of the Future
           day delivery and dynamic
           rerouting.                                   The rapid pace of technology is leading to
                                                        major innovations that disrupt the future
          E-retailers want to focus on                 package delivery market. We are starting to
                                                        see hints of tomorrow’s innovations today:
           commerce, not logistics, and
           seek delivery partners that                           Same-Day Delivery
           seamlessly and cost-effectively                       Sunday Delivery
           take care of shipping and                             Drones
           fulfillment. E-retailers currently                    Parcel Lockers
           care most about delivery cost,                        3D Printing*
           reliability, track and trace, and                     Low Carbon Footprint
           ease of use; however, they                            Distribution Centers Near Delivery
           require many products and                             Crowdsourced Delivery
           services due to the complexity                        Advanced Analytics.
           and personalization of long                  To its credit, the Postal Service is exploring
           distance shopping.                           some of these; however, as the long-term
                                                        impacts of these and other innovations are
          Modern package delivery                      yet to be determined, it needs to, at a
           companies offer solutions                    minimum, closely monitor developments
           along the entire delivery value              and opportunities.
           chain including end-to-end
           solutions like returns                       *see, for example, USPS OIG, If It Prints, It Ships: 3D
                                                        Printing and the Postal Service, Report No. RARC-
           management and logistics                     WP-14-011, July 7, 2014.
           planning and information
           solutions like mobile
           technology and applications.

          The package delivery company of the future will find dual uses for
           customer-driven and internally-driven data and capabilities.

Financial Trends and Analysis
                                   Figure 2 shows that, from 2008 to 2013, Postal Service
     While packages are            package volume increased by over 20 percent while all
     growing in importance to      other mail volume decreased by more than 20 percent.
     the Postal Service’s          Some letter- and flat-shaped correspondence and
     future, its financials and    transactions are diverting from physical mail to digital
     network are still built       alternatives, and volume projections expect those
     largely upon letters and      trends to continue.16 Hence, packages are growing in
     flats.                        importance to the Postal Service’s future financials and
                                   network. Paradoxically, both the physical network and
the financial footing are largely built on letters and flats.
16
   See, for example, Boston Consulting Group, Projecting U.S. Mail Volumes to 2020, March 2, 2010,
http://about.usps.com/future-postal-service/gcg-narrative.pdf.


U.S. Postal Service Office of Inspector General                                                           July 21, 2014
                                                        7
RARC-WP-14-012                                                                               Package Services: Get Ready, Set, Grow!



Postal Service Financials
Figure 5 shows that packages accounted for 17 percent of total Postal Service revenue
and 23 percent of attributable cost in FY 2013.17 This translated to over $11 billion in
revenue and over $9 billion in cost.

 Figure 5: Packages Are 17 percent of Postal Service Revenue and 23 percent of Cost for
                                        FY 2013

                          Revenue
                         8%                                              11%
                                                                                   Cost
                    1%
                                                                    1%
               8%
                                                              11%                                   All Mail (Less Priority Mail
                                                                                                    Express and Packages)
                                                                                                    Priority Mail Packages


                                                                                                    Priority Mail Express


                                                                                                    All Other Packages


                                             83%                                          77%


           Source: OIG Analysis and Postal Service.

Figure 6 shows that packages contributed over $2 billion and all other mail just under
$24 billion towards the Postal Service’s institutional costs. Of the $26 billion total in
contribution, packages accounted for 8 percent.18

                         Figure 6: Packages Contributed Over $2 Billion in FY 2013

                                                      Contribution (millions)
                          $25,000          $23,667


                          $20,000                                               All Mail (Less Priority Mail
                                                                                Express and Packages)
                          $15,000                                               Priority Mail Packages


                          $10,000                                               Priority Mail Express


                              $5,000                                            All Other Packages
                                                     $1,308
                                                               $374      $497
                                 $0
                                                         2013

                         Source: OIG Analysis and Postal Service.

17
   This section’s financial data includes all shapes for Priority Mail Express, but only parcel-shaped mail matter for
Priority Mail and all other packages. All other packages includes First-Class Mail, Standard Mail, and Package
Services Mail parcels. When discussing packages in aggregate, this section combines Priority Mail Express, Priority
Mail, and all other packages. OIG Analysis and Postal Service, Public Cost and Revenue Analysis, FY 2013 (Revised
2/6/2014,) and Postal Service, Quarterly Statistics Report (QSR), Quarter IV FY 2013.
18
   Ibid.


U.S. Postal Service Office of Inspector General                                                                               July 21, 2014
                                                                          8
RARC-WP-14-012                                                                            Package Services: Get Ready, Set, Grow!



Figure 7 shows unit contributions and profit margins.19 Priority Mail Express had a very
high unit contribution, but it accounted for only 1 percent of total revenue and even less
of total volume in FY 2013.20 Priority Mail also had a strong unit contribution and it is the
flagship package product in terms of volume, revenue, and total contribution. All other
packages had sizeable revenue and positive contribution in aggregate, but had
relatively thin unit contribution and profit margins.

Figure 7: Some Packages Have Healthy Unit Contributions and Profit Margins for FY 2013

                   Unit Contribution                                               Profit Margin
     $10.00                        $9.57                                           47%
                                                    50%
                                                               44%

      $8.00                                                                                              All Mail (Less Priority Mail
                                                                                                         Express and Packages)
      $6.00                                                                                              Priority Mail Packages
                                                                      24%
                                                    25%
      $4.00                                                                                              Priority Mail Express

                           $1.86                                                         10%
      $2.00                                                                                              All Other Packages
                   $0.15                    $0.20
      $0.00                                         0%
                               2013                                         2013


     Source: OIG Analysis and Postal Service.

In summary, packages had a healthy bottom line, but the financial data vary from
product to product. Packages are growing in importance to the Postal Service’s future,
but letters and flats dominate the current financial landscape.

Package Delivery Market Financials
Although there are regional package delivery companies like LaserShip and OnTrac,
the domestic package delivery market is dominated by three companies: the Postal
Service, UPS, and FedEx.21 Their combined 2013 shipping and package services and
domestic packages revenues were more than $68 billion and their volumes were almost
9.6 billion pieces.22 Figure 8 shows their domestic revenue and volume market shares in
2013.23

The Postal Service captured less than one-fifth of the package delivery market’s total
revenue, but almost two-fifths of its total volume; therefore, the Postal Service’s mix of
packages in aggregate had lower revenue per piece when compared to UPS and
FedEx. This makes sense given its pricing and range of product offerings, including flat
rate boxes and last-mile delivery. Because the Postal Service goes to every address six

19
   Ibid.
20
   Priority Mail Express had over 39 million pieces in FY 2013. This was 0.02 percent of the total volume of 158 billion
pieces. See, Postal Service, Public Cost and Revenue Analysis, FY 2013 (Revised 2/6/2014).
21
   This section is based on domestic package market data as reported in Annual Reports. Those data are not limited
to parcel-shaped mail matter and do not necessarily align in consistent and uniform delivery commitment categories.
22
   Postal Service, 2013 Annual Report to Congress, UPS, U.S. Domestic Package Operations, Quarterly Historical
Income and Operating Data, 2013 Q4, and FedEx, Total U.S. Domestic Packages, FedEx Annual Report 2013.
23
   Ibid.


U.S. Postal Service Office of Inspector General                                                                          July 21, 2014
                                                           9
RARC-WP-14-012                                                                   Package Services: Get Ready, Set, Grow!



days a week and delivers mostly letters and flats, it has a strong competitive advantage
delivering lightweight pieces. Other delivery companies recognize this and frequently
deposit their lightweight packages into the Postal Service’s network for final delivery. In
fact, the Postal Service makes final delivery for about two-thirds of the nation’s
lightweight packages.24

      Figure 8: The Domestic Package Delivery Market in 2013 — Postal Service Delivers
                          the Lower Revenue per Piece Packages

                        Revenue                                         Volume

                                      18%
                                                      23%
                                                                                         USPS (Total Shipping &
                32%                                                        39%
                                                                                         Package Services)

                                                                                         UPS (U.S. Domestic
                                                                                         Package Operations)

                                                                                         FedEx (Total U.S. Domestic
                                                                                         Packages)
                                                        38%
                                    50%




     Source: Postal Service, UPS, and FedEx.

Figure 9 shows the domestic revenue per piece by the three major segments of the
package delivery market: overnight, 2-day and 3-day, and ground.25 The Postal Service,
UPS, and FedEx have different value-added services and package characteristics
including different average weight, cube, distance from entry to delivery, address
quality, and number of pieces per customer mailing. These factors explain many of the
differences in revenue per piece.

In the 2-day and 3-day segment, Priority Mail has the lower revenue per piece. This is
likely due to the pricing schedules and specific package characteristics including
packages entered via retail channels and lightweight packages, typically 4 pounds and
under. For Priority Mail, the financial data showed a unit contribution of $1.86 and a
margin of 24 percent; therefore, the Postal Service may have a comparative cost
advantage for Priority Mail packages. That advantage may be the result of specific
economies of density and economy of piggybacking onto the existing transportation,
processing, and delivery network designed around letters and flats.




24
  Christensen Associates analysis of Postal Service package data.
25
  Postal Service, 2013 Annual Report to Congress, UPS, U.S. Domestic Package Operations, Quarterly Historical
Income and Operating Data, 2013 Q4, and FedEx, Total U.S. Domestic Packages, FedEx Annual Report 2013.


U.S. Postal Service Office of Inspector General                                                                July 21, 2014
                                                      10
RARC-WP-14-012                                                                                            Package Services: Get Ready, Set, Grow!



                     Figure 9: Domestic Revenue Per Piece by Major Delivery Market
                                        Segment from 2009-2013

                                                                    Overnight
                                                                                    $20.36
                                 $20.00                                             $20.12

                                 $18.00
                                                                                    $17.33
                                 $16.00                                                       Priority Mail Express
                                                                                              UPS Next Day Air
                                 $14.00
                                                                                              FedEx Overnight

                                 $12.00

                                 $10.00
                                             2009     2010   2011     2012   2013



                                                              2-Day and 3-Day

                        $14.00
                                                                                                    $12.70
                        $12.00
                        $10.00
                         $8.00                                                                      $7.60
                                                                                                               UPS Deferred
                         $6.00                                                                                 Priority Mail
                         $4.00
                         $2.00
                            $-
                                 2009               2010       2011          2012            2013


                                                                      Ground
                                  $10.00
                                                                                             FedEx Ground
                                   $9.00                                            $8.97

                                   $8.00                                            $7.96
                                   $7.00                                                     UPS Ground

                                   $6.00

                                   $5.00
                                                                                             FedEx SmartPost
                                   $4.00

                                   $3.00
                                                                                             USPS Shipping &
                                   $2.00                                            $1.76    Package Services (less
                                                                                    $1.71    Priority Mail and
                                   $1.00
                                                                                             Express Mail)
                                        $-
                                             2009     2010   2011     2012   2013


                      Source: Postal Service, UPS, and FedEx.




U.S. Postal Service Office of Inspector General                                                                                     July 21, 2014
                                                                        11
RARC-WP-14-012                                                                      Package Services: Get Ready, Set, Grow!



In the ground segment, shipping and package services include the Postal Service’s
last-mile offering, Parcel Select Destination Delivery Unit (DDU).26 These packages are
entered directly to the Postal Service in bulk for delivery only. This contributes to the
lower revenue per piece. Financial data for all other packages, including Parcel Select
DDU, showed relatively thin unit contribution and profit margins. Total ground
commercial packages, including Parcel Select, Parcel Return Services, and Standard
Post, had an average unit contribution of 28 cents per piece in 2013; however, the
average unit contribution for Parcel Select, including the Parcel Select DDU product
used for FedEx SmartPost, was even less than this small average.27

FedEx SmartPost and UPS SurePost collect and process packages and then typically
use the Postal Service for final delivery. Both of these products have been growing
quickly and provide total national coverage by tapping the Postal Service’s extensive
delivery network. Figure 10 shows that SmartPost volume increased by 150 percent in
four years.28 FedEx SmartPost’s revenue per piece is slightly higher than the revenue
per piece for Postal Service shipping and package services.

                  Figure 10: FedEx SmartPost Increased 150 Percent from 2009-2013

                                                         Volume (millions)
                      600

                      500

                      400

                      300

                      200

                      100

                        -
                            2009                  2010           2011        2012              2013

                    Source: FedEx.

26
   The Postal Service has lauded the increase in last-mile only delivery products. See, for example, “Amazon/USPS
pilot project: Amazon will deliver packages to local post offices instead of processing plant,” Ruralinfo.net,
June 6, 2014, http://www.news.ruralinfo.net/2014/06/amazonusps-pilot-project-amazon-will-deliver-packages-to-local-
post-offices-instead-of-processing-plant.html. However, evidence suggests that focusing on the last-mile will limit
options and prevent the Postal Service from meeting the evolving needs of customers.
27
   OIG Analysis and Postal Service, Public Cost and Revenue Analysis, FY 2013 (Revised 2/6/2014) and Postal
Service, Quarterly Statistics Report (QSR), Quarter IV FY 2013.
28
   FedEx, Total U.S. Domestic Packages, FedEx Annual Report 2011 and FedEx Annual Report 2013. SurePost
volume increased by more than 30 percent in the fourth quarter 2013. “Declining Revenue Per Package May Temper
UPS's Revenue Growth,” Forbes, April 21, 2014, http://www.forbes.com/sites/greatspeculations/2014/04/21/declining-
revenue-per-package-may-temper-upss-revenue-growth/. On June 18, 2014, FedEx reported results for its fourth
quarter and noted that SmartPost average daily volume decreased 8 percent; however, SmartPost total volume for
FY 2014 still exceeded the total volume for FY 2013. FedEx, “FedEx Corp. Reports Higher Fourth Quarter Earnings,”
news release, June 18, 2014, http://investors.fedex.com/phoenix.zhtml?c=73289&p=irol-newsarticle&ID=1940157.


U.S. Postal Service Office of Inspector General                                                               July 21, 2014
                                                                12
RARC-WP-14-012                                                               Package Services: Get Ready, Set, Grow!



Within each of the three major segments of overnight, 2-day and 3-day, and ground, the
package delivery market has areas of high revenue per piece. Again, that could be
caused by many factors including high prices, specific package characteristics, or value-
added services. Nonetheless, it appears that while the Postal Service is competitive in
the low revenue per piece segments, it may have a growing need to enter the higher
revenue per piece segments. It can do this in a number of ways including by increasing
the revenue yield per existing package or by increasing the number of new, higher
revenue packages.

Key Strategic Considerations
          Packages are growing in importance to the Postal Service’s future financials and
           network. Package financial data vary from product to product, but, in aggregate,
           contributed over $2 billion towards institutional costs. Letters and flats contributed
           almost $24 billion, but that is at risk if productivity gains or price increases do not
           offset the forecasted volume decrease.

          The Postal Service’s average revenue per piece for shipping and package
           services was $3.37 in 2013.29 UPS and FedEx’s averages for their domestic
           packages were $9.39 and $9.70, respectively.30 Many factors affect the average
           revenues, but the Postal Service may have an increasing need to offer and
           charge for value-added services and enter the higher revenue per piece areas.

A Customer-Driven Package Strategy
The Postal Service is positioned to capture much of
the value of e-commerce growth; however, it will face
                                                                        The Postal Service needs
aggressive competition from other package delivery                      a package strategy that
companies and e-retailers building fulfillment centers                  focuses on customers,
closer to delivery areas. The Postal Service needs to                   positions itself for
do more than just increase its package revenues and                     long-term success, directs
maintain its current products. It needs a package                       investments, and expands
strategy that focuses on customers, positions itself                    its role across the
for long-term success, directs investments, and                         package delivery value
expands its role across the package delivery value                      chain.
chain.

Focus on Customers
The cornerstone of any package strategy is a focus on customers. As discussed earlier,
the Postal Service’s first and foremost customers should be both senders and
recipients. This focus allows the Postal Service to understand, meet, and sometimes
anticipate their shipping and fulfillment needs. This transcends last-mile delivery, and


29
  Postal Service, 2013 Annual Report to Congress.
30
  UPS, U.S. Domestic Package Operations, Quarterly Historical Income and Operating Data, 2013 Q4, and FedEx,
Total U.S. Domestic Packages, FedEx Annual Report 2013.


U.S. Postal Service Office of Inspector General                                                        July 21, 2014
                                                     13
RARC-WP-14-012                                                                     Package Services: Get Ready, Set, Grow!



includes the modern products and services listed in Table 1 and discussed earlier in the
paper.

Position for Long-Term Success
Build the Right Identity
A second element of a package strategy is to build and fortify an identity. This includes
defining business goals, market perception, and organizational DNA. Business goals
could be based on volume, revenue, profit contribution, universal service, customer
satisfaction, and other metrics. The Postal Service can come to embrace the dual goals
of universal service and profitability as it works to better serve consumers, keep
American commerce efficient, facilitate business, and provide the high-quality
competition necessary to ensure the availability of the best possible package services at
the best prices.

Market perception is defined as how existing and future customers view a company and
its products and services. Customers have a strong perception of the Postal Service as
the low-cost delivery company for lightweight packages. However, customers also
perceive the Postal Service to be less technologically advanced than its competitors,
often believing it lacks their abilities to track and trace shipments. This includes detailed
tracking information provided by company websites, guaranteed time delivery, and trust
delivering expensive, time-sensitive items. In a 2011 survey, over 40 percent of industry
shippers answered that they did not consider the Postal Service a viable alternative to
FedEx or UPS for ground services, and 55 percent said that the Postal Service was not
an alternative for air or express services.31 In addition, one freight consultant criticized
the Postal Service for its “lack of guaranteed time delivery, inferior tracking system,
[and] lack of trust when it comes to more expensive, time-sensitive items.”32 The Postal
Service is investing in its tracking and tracing capabilities and has made significant
progress. It is continuing to work to eliminate these perceived disadvantages and to
                                meet customers’ expectations for detailed tracking
   With attention to the        information. Once it has fixed these perceived deficiencies,
   needs of the modern          the Postal Service will need to communicate to its
   customer, the Postal         customers to gain their trust that it can provide these
   Service can establish        services.
     a market perception as
     the reliable, low-cost      Developing the ability to meet customers’ demands for
     shipper of first choice.    delivery certainty, tracking, and ease of use, along with its
                                 existing advantages in ubiquitous presence, price and
reliability, will help improve the Postal Service’s market perception. This will lead
customers to often consider it the best option for package delivery. Its current market

31
   U.S. Posal Service Office of Inspector General (OIG), Enriching Postal Information: Applications for Tomorrow’s
Technologies, Report No. RARC-WP-14-006, January 13, 2014,
https://www.uspsoig.gov/sites/default/files/document-library-files/2014/rarc-wp-14-006.pdf, p. 9.
32
   Multichannel Merchant, Why USPS is a Viable Alternative to FedEx and UPS, January 23, 2013,
http://multichannelmerchant.com/opsandfulfillment_shipping/why-usps-is-a-viable-alternative-to-fedex-and-ups-
23012013/.


U.S. Postal Service Office of Inspector General                                                              July 21, 2014
                                                         14
RARC-WP-14-012                                                                      Package Services: Get Ready, Set, Grow!



perception as the shipper of last resort, the shipper that will deliver the difficult, low-
revenue packages that its competitors discourage customers from shipping, will limit its
ability to serve citizens and businesses well and minimize its revenue potential from the
package market. With attention to the needs of the modern customer, the Postal
Service can establish a market perception as the reliable, low-cost shipper of first
choice, helping it to increase its package revenue as part of the growing market.

Internally, the Postal Service needs to expand its organizational DNA from a processing
and delivery company to an information company as well.33 The Postal Service has a
critical role in delivering physical packages; however, information about those packages
can be almost as important as the mail piece itself. This goes beyond investments in
scanning technologies and applications and includes a business culture obsessed with
scanning, protecting, and growing intellectual property. It also includes a high-level
corporate organization that values enriching postal information to meet business and
customer needs.

Enlarge Competencies and Advantages
A third element of a package strategy is enlarging core competencies and comparative
advantages. The Postal Service has natural network advantages in retail, bulk mail
processing, and low-cost delivery. Other package delivery companies and e-retailers
analyze their package densities and service commitments to determine the optimal
delivery method. As mentioned earlier, FedEx SmartPost and UPS SurePost often use
the Postal Service for final delivery; however, they will use their own vehicle fleet for
final delivery when it makes business sense to do so — for example, when they already
have a vehicle out for other nearby deliveries.

Additionally, as package volumes increase, average package revenue per delivery stop
per day will also increase. This increase in revenue will provide a profit opportunity for
e-retailers and package delivery companies to complete their own delivery on more
days, and use the Postal Service last-mile on fewer days. If such trends continue, this
could be a strategic risk for the Postal Service. The Postal Service cannot afford to be
the provider of last-mile delivery only when the average package volume per stop is low.

Invest in the Package Business
Maximize Efficiencies
A fourth element of a package strategy is investing in the package business to minimize
the cost of providing modern products and services. This begins with knowing product
costs and modernizing the cost structure to meet emerging customer needs. One option
is to invest in elements of a network dedicated to processing and delivering packages.




33
     OIG, Enriching Postal Information: Applications for Tomorrow’s Technologies.


U.S. Postal Service Office of Inspector General                                                               July 21, 2014
                                                          15
RARC-WP-14-012                                                                  Package Services: Get Ready, Set, Grow!



The OIG has studied the Postal
Service’s present readiness for
package growth, and has found
that it has successfully managed
package growth, adjusted to
fluctuations in package volume,
improved scan rates, and
possesses enough machine                            Purolator Courier Ltd., Canada’s leading
capacity to process non-peak                        overnight courier, has delivered shipments
package volume; however,                            for over 50 years. As a subsidiary of Canada
opportunities exist to improve                      Post, it focuses on the business-to-business
readiness for package growth by                     (B2B) segment and employs more than 12,500
taking steps that include                           people. Purolator's network consists of 182
implementing dynamic routing,                       operation facilities, 132 retail shipping
retaining more city carrier                         centers, over 580 authorized shipping agents,
                                                    more than 3,900 vehicles, and the country's
assistants, increasing barcode
                                                    largest dedicated air express fleet.
scanning, reducing customer wait
times, and adjusting mail arrival                   In 2012, Purolator had revenue of $1.6 billion
schedules to correspond with                        and volume of 139 million packages. Over the
processing machines’ operating                      last five years, it netted $331 million in profit.
windows.34

The capabilities of the existing
network built around letters and
flats may not be sufficient to meet
                                                    If the U.S. Postal Service operated a similar
the new and future needs of
                                                    subsidiary in scale, it would employ 100,000
package customers. Investing in                     workers, have 1,600 facilities, operate 35,000
structural changes that reduce its                  delivery vehicles, charter 200 aircraft, and
cost base will provide it the                       operate 6,000 highway trucks. It would also
flexibility necessary to adapt to                   have $15 billion in revenue, deliver 1.2 billion
customer needs and offer                            packages, and be profitable.
competitive products and services.                  This is not farfetched, and is smaller than
This paper is not advocating one                    UPS’s 300,000-plus employees, $34 billion
specific management and cost                        revenue, and 3.6 billion packages.
structure, such as a subsidiary or
                                                    Source: OIG Analysis and Canada Post, 2012 Annual
strategic business unit (see                        Report.
Purolator sidebar), but does offer
the following ideas worth exploring
and investing in:



34
   OIG, Readiness for Package Growth -- Delivery Operations, Report No. DR-MA-14-001-DR, December 11, 2013,
https://www.uspsoig.gov/sites/default/files/dr-ma-14-001-dr.pdf; OIG, Readiness for Package Growth -- Processing
Capacity, Report No. NO-AR-14-002-DR, January 21, 2014, https://www.uspsoig.gov/sites/default/files/no-ar-14-002-
dr.pdf; OIG, Readiness for Package Growth -- Customer Service Operations, Report No. DR-MA-14-003-DR, March
31, 2014, https://www.uspsoig.gov/sites/default/files/dr-ma-14-003_-dr.pdf.


U.S. Postal Service Office of Inspector General                                                           July 21, 2014
                                                       16
RARC-WP-14-012                                                                     Package Services: Get Ready, Set, Grow!



          Empowering a high-level corporate organization focused on operations
           research.35

          Increasing use of intermodal rail to reduce costs, reduce exposure to fuel price
           volatility, increase environmental benefits, and hedge against strategic risks
           posed by overreliance on the highway trucking industry.36

          Assessing a future package processing and transportation network, either fully
           integrated with or partially separate from letters and flats.37

          Decoupling retail and delivery operations at post offices to improve service and
           lower costs.38

          Assessing a future delivery network, integrated with or separate from letters and
           flats, for packages. This includes determining the optimal size and type of
           delivery vehicles, availability of equipment like carts and hand trucks on delivery
           vehicles, dynamic routing, day-certain delivery, configuration of package lockers,
           and viability of cluster boxes.39

          Investing in an information-rich backbone to improve operational efficiencies and
           planning.40

Expand Along the Package Delivery Value Chain
Figure 11 shows the home delivery value chain.41 Traditional postal expertise is at one
end of the chain — package delivery and returns; however, “in order to prevent being
trapped in delivering a commodity service, postal operators need to work with their
customers and look for opportunities to move up the home delivery value chain.”42 This


35
    UPS has invested in such a group that optimizes sortation, dispatch planning, and delivery. One recent innovation
is its ORION (On-Road Integrated Optimization and Navigation) system that optimizes drivers’ routes. This not only
reduces costs and environmental impact, it’s a competitive advantage allowing personalized delivery options.
Notably, ORION was conceived in 2000, was tested in 2008, and has 500 staff working towards full deployment by
2017. See, for example, “Meet ORION, Software That Will Save UPS Millions By Improving Drivers' Routes,” Forbes,
November 1, 2013, http://www.forbes.com/sites/alexkonrad/2013/11/01/meet-orion-software-that-will-save-ups-
millions-by-improving-drivers-routes/.
36
    OIG, Strategic Advantages of Moving Mail by Rail, Report No. RARC-WP-12-013, July 16, 2012,
https://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-12-013.pdf.
37
    A related idea that could possibly be worth exploring is assessing the ownership of an air network. The Postal
Service, unlike UPS and FedEx, does not own its own air network.
38
    OIG, Retail and Delivery: Decoupling Could Improve Service and Lower Costs, Report No. RARC-WP-11-009,
September 22, 2011, http://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-11-009_0.pdf.
39
    The OIG recommended that the Postal Service formalize a long-term plan to replace the vehicle fleet that includes
requirements and specifications for the next generation of delivery vehicles. The report noted that growth in the
package market could influence the design and technologies selected for new vehicles. OIG, Delivery Vehicle Fleet
Replacement, Report No. DR-MA-14-005, June 10, 2014, http://www.uspsoig.gov/sites/default/files/document-library-
files/2014/dr-ma-14-005.pdf.
40
    OIG, Enriching Postal Information, pp. 9-10.
41
    International Post Corporation, IPC Cross-Border E-Commerce Report, 2010,
http://www.ipc.be/~/media/documents/public/markets/ipc%20cross-border%20e-commerce%20report.ashx, p. 37.
42
    Ibid.


U.S. Postal Service Office of Inspector General                                                              July 21, 2014
                                                         17
RARC-WP-14-012                                                                              Package Services: Get Ready, Set, Grow!



is not surprising as modern package delivery companies, as discussed, are already
doing this.

                                       Figure 11: Package Delivery Value Chain


                                                               Postal Opportunity                       Postal Expertise


                                                                                      Warehousing /
      Retailer /    Website      Customer D-Base   Marketing    Online                                 Package      Return
                                                                         Line Haul        Order
     Manufacturer   Design        Management        & CRM      Payment                                 Delivery   Management
                                                                                       Preparation




Source: International Post Corporation.

Although the Postal Service should continue to offer last-mile-only delivery, strategically
it “run[s] the risk of being commoditised by fulfillment providers that act as consolidators
buying parcel volumes at low prices. This would
result in revenues at marginal costs and losing             In order to prevent being
contact with profitable and promising customer              trapped in delivering an
segments such as SMEs or start-ups.”43                      easily replaced commodity
                                                                                     service, postal operators
The Postal Service should consider expanding end-                                    need to work with their
to-end service and increasing value-added                                            customers and look for
services.44 This would increase revenue per piece                                    opportunities to move up the
                                                                                     home delivery value chain.
and enhance critical contact with senders and
recipients.

Key Strategic Consideration
Package delivery companies are increasingly competitive, obsessed with controlling
costs and expanding services along the package delivery value chain. In addition,
e-retailers are looking for more efficient shipping strategies including investing in their
own infrastructure to reduce and eliminate shipping costs. Both trends threaten the
Postal Service’s future package business; hence, the Postal Service needs a customer-
driven package strategy that builds the right identity, enlarges competencies and
advantages beyond last-mile delivery, invests in productivity gains and controlling costs,
and offers products and services along the package delivery value chain.



43
   International Post Corporation and The Boston Consulting Group, Focus on the Future: Building a New Compelling
Position for Posts, June 2012, http://www.ipc.be/~/media/Documents/PUBLIC/Brochures/IPC-
BCG_Focus%20on%20the%20Future.pdf, p. 42.
44
   Current law limits the Postal Service’s ability to offer nonpostal services, or services not directly related to mail
delivery. The Postal Service will have to assess on a case-by-case basis whether or not specific end-to-end and
value-added services will be permitted. Nonetheless, in addition to offering universal products and services, the
Postal Service can expand package services via experimental postal products or negotiated service agreements.


U.S. Postal Service Office of Inspector General                                                                       July 21, 2014
                                                                 18
RARC-WP-14-012                                                                         Package Services: Get Ready, Set, Grow!



Next Steps
As the Postal Service modernizes its network and updates service commitments, it will
be critical to defend and grow its package business while also ensuring that customers
receive high-quality services.

Table 2 shows a list of the most common complaints
                                                             In the near term, the Postal
about package delivery.45 This survey describes, in          Service needs to minimize
order, the main reasons that customers have a poor           poor experiences and
experience with parcels for all delivery companies in        provide the level of service
the United States. These ratings may be somewhat             that consumers demand.
                                                       46
different for Postal Service customers specifically.
In the near term, the Postal Service needs to continue to minimize the poor experiences
and deliver the service expected from consumers, especially as it considers different
delivery days for letters and flats, right-sizing the number of post offices, and
modernizing its service standards.

                                Table 2: Inconvenient Times and Packages Left
                                Unattended are Top Reasons for a Poor Package
                                                 Experience
                                    Main Reasons for a Poor Package Experience
                                        Package delivered at inconvenient time
                                        Package left unattended
                                        Package lost or damaged
                                        Package not delivered on time
                                        Unable to receive package at home
                                        Signature required for package
                                        Inconvenient hours or location of pickup facility
                                        Package returned to sender too quickly
                                        Delivery instructions not followed
                                   Source: Accenture.

Another next step in the near term focuses on the services that consumers use and
value most. Figure 12 shows that consumers have the greatest willingness to pay for
accelerated delivery, delivery scheduling, secure delivery, and enhanced tracking.47
This figure can guide the Postal Service’s priorities as it considers modernizing its
existing services to meet consumers’ needs and grow its package business.




45
   Accenture, Global Consumer Control Research Findings, 2014, http://postalvision2020.com/wp-
content/uploads/2014/04/Enabling-Consumer-Control-%E2%80%93-Global-Perspectives.pdf, p. 10.
46
   A recent visit to a Postal Service facility suggested that Postal Service customers were most upset when carriers
did not leave packages when they were not at home and, therefore, had to go to a Post Office to pick up the package.
47
   Accenture, Global Consumer Control Research Findings, p. 12.


U.S. Postal Service Office of Inspector General                                                                  July 21, 2014
                                                              19
RARC-WP-14-012                                                 Package Services: Get Ready, Set, Grow!



   Figure 12: Consumers are Willing to Pay for Accelerated Delivery, Scheduling, Secure
                            Delivery, and Tracking Services




 Source: Accenture.

Going forward, the Postal Service should monitor and study consumer preferences to
determine the best services to offer across the entire package delivery value chain. It
should also focus its investments into creating and developing a network that can
maximize the efficiency and minimize the cost of providing these services. Establishing
a reputation as the package delivery company offering the most reliable and
cost-effective services will help ensure its future as a modern delivery company that
meets the needs of 21st century commerce.




U.S. Postal Service Office of Inspector General                                          July 21, 2014
                                                  20
RARC-WP-14-012                                                                 Package Services: Get Ready, Set, Grow!




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                           July 21,2014
